WAIVER

Supreme Court of the United States
No. 19-955

Shirley Hirshauer v. AQ Holdings, LLC, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

t There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

AQ Holdings, LLC

 

® Jama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member. —
BU. hme LE

Signature
Fel 10,20 R°

Brooke Schumm III
Mr. OMs. O Mrs. OC Miss

Date:
(Type or print) Name.
Firm__Daneker, McIntire, Schumm, Prince, Manning & Widmann, P.C.

1 N. Charles St., Suite 2450

 

 

Address
City & State__Baltimore, MD Zip 21201
Phone __ 410-649-4761

 

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Steven Y. Brennan, Esq.
Elise M. Ice, Esq.
Shirley Hirshauer, Petitioner

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
